Southern District of West Virginia - Press Release: April 29, 2010                                                    Page 1 of 1




   United States Attorney's Office - Southern District of
   West Virginia


   News Release

   FOR IMMEDIATE RELEASE
   April 29, 2010

   In matters prosecuted by the US Attorney's Office for the Southern District of West Virginia:

                             FORMER STATE EMPLOYEE PLEADS GUILTY TO EXTORTION

   Gwen Conley, 52, of Chapmanville, West Virginia, pled guilty before United States District Thomas E. Johnston to
   interference with commerce by extortion, otherwise known as a Hobbs Act violation. While employed by the WV
   Department of Transportation in the Division of Highways as a transportation engineering technician, Conley
   inspected work on the Route 10 four lane road expansion project in Man, Logan County, West Virginia. Conley asked
   for and received money from a business responsible for temporary erosion control along the project. The owner of
   the business approached the West Virginia State Police and agreed to work as a cooperating individual. The owner
   delivered thousands of dollars to Conley in pre-recorded buy money that Conley was not entitled to receive in July
   and August 2008. The money was paid so that Conley would falsely claim the business was performing more erosion
   control services than they actually were, defrauding the state and federal government. The money was paid to
   Conley because of his public position with the Department of Transportation, and was received while he was on duty,
   qualifying as extortion "under color of official right." United States Attorney Chuck Miller stated, "The United States
   Attorney's Office takes very seriously allegations that public employees are taking money or benefits they are not
   entitled to receive. These cases will be vigorously pursued by this office." Conley, who is no longer employed by the
   WV Department of Transportation, is scheduled to be sentenced on August 26, 2010. He faces up to 20 years in
   prison, a $250,000 fine and has also agreed to pay restitution. The West Virginia State Police, Logan Detachment and
   the U. S. Department of Transportation, Office of Inspector General conducted the investigation. AUSA Erik Goes
   handled the prosecution.

   Back to Previous




http://www.justice.gov/usao/wvs/press_releases/2010/apr10/042910.html                                                   5/7/2010
